No. 20-1009
IN THE

Supreme Court of the United States
DAVID SHINN, et al.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
Brief of Amicus Curiae of Habeas Scholars in Support of Respondents
contains 3,485 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d), in compliance with the word limit set forth in
Supreme Court Rule 33.1(g)(x).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on the 20th of September, 2021.
/s/

Boris Bershteyn
Boris Bershteyn

